                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A07070041
                                                                                    11          Page 1 of 1



                   We received an allegation that proposals' submitted to NSF by the subject? contained
           copied text. After referral of the investigation to the subject's university, we received a separate
           allegation of plagiarism by the subject in another proposal,3 then under merit review by NSF.
           This third proposal was a resubmission. Our analysis of this third proposal indicated that
           substantial portions of the text were copied fiom a previously funded NSF proposal submitted by
           others. We established that the subject made a Freedom-of-Information-Act (FOIA) request, and
           pursuant to that request, NSF provided the subject with paper copies of funded proposals. Three
           of these proposals became sources for the copied text.

                    We prepared a report of investigation (attached) for NSF. We recommended that NSF
           make a finding of research misconduct against the subject; send a letter of reprimand to the
           subject; debar the subject fiom receiving Federal funds for a period of 3 years; require that the
           subject submit certifications to AIGI, NSF OIG for 2 years after debarment ends; require that the
           subject's employer submit assurances to AIGI, NSF OIG for 2 years after debarment ends;
           prohibit the subject from sening as a merit reviewer of NSF proposals for 3 years after
           debarment ends; and require the subject provide certification of attendance at a training course in
           proper conduct of research. The Deputy Director debarred the subject for three years, required
           three years of post-debarment certifications and assurances, prohibited the subject from serving
           as an NSF advisor, reviewer, or consultant for five years, and required the subject to complete an
           ethics training course on plagiarism.

                     Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                          FEB 1 9 2009
    OFFICE OF THE!
   DEPUTY DIRECTOR




CERTIFIED &AIL --RETURN RECEIPT REQUESTED

David Eromon
[REDACTED]
                 I

                11

                 1-
       Re: Noiice of Proposed Debarment and Notice of Research Misconduct Determination
                11

             '1
Dear Dr. Eromon:

In 2006-2007, tpe University submitted three proposals to the National Science Foundation
('WSF" or the ':~oundation")for which you were identified as the Principal Investigator. As
documented in the attached investigative report prepared by NSF's Office of Inspector General
("OIG"), these broposals contained plagiarized material.
                 t
In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
fiom directly o r indirectly obtaining the benefits of Federal grants for three years. During your
period of debanhent, you will be precluded fiom receiving Federal financial and non-financial
                 ,I
assistance and benefits under non-procurement Federal programs and activities. In addition, you
                 1t
will be prohibited fiom receiving any Federal contracts or approved subcontracts under the
Federal ~ c ~ u i s k Regulations
                      on           ("FAR). Lastly, during your debarment period, you will be
barred fiom h a h g supervisory responsibility, primary management, substantive control over, or
                 11
critical influence on, a grant, contract, or cooperative agreement with any agency of the Executive
                  !
Branch of the Federal    Government.
                I
In addition to pioposing your debarment, I am prohibiting you fiom serving as an NSF reviewer,
advisor, or coniultant to NSF until February 15,2014. Furthermore, for three years after your
                 I
debarment period expires, I am requiring that you submit certifications, and that a responsible
official of your kmployer submit assurances, that any proposals or reports you submit to NSF do
not contain pla$iarized, falsified, or fabricated material. Lastly, you must complete an ethics
training course on plagiarism prior to submitting another proposal to NSF as a Principal
Investigator or co-principal Investigator, and certifjr in writing to the OIG that you have done so.
                                                                                                Page 2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ..." 45 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1 (a)(3). A finding of research misconduct
requires that:

         (1) 	There be a significant departure from accepted practices of the relevant research
              community; and
         (2) 	The research misconduct be committed intentionally, or knowingly, or recklessly; and
         (3) 	The allegation be proven by a preponderance of evidence.

45 CFR § 689.2( c).

Your proposals contained verbatim and paraphrased text from numerous source documents. By
submitting proposals to NSF that copies the ideas or words of another without adequate
attribution, as described in the OIG investigative report, you misrepresented someone else's work
as your own. In addition, you failed to properly acknowledge or credit the authors ofthe source
documents in your proposals. Your conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the applicable definition of "research misconduct" set furth in
NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make ajinding of
misconduct based on a preponderance ofthe evidence. 45 CFR § 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed intentionally and constituted a significant departure from accepted
practices 0 f the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.               '

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding ofniisconduct. 45 CFR §689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval ofparticular activities from NSF; requiring
thatan  institution or individual obtain special prior approval of particular activities from NSF; and
requiring that an institutional representative certifY as to the accuracy 0 f reports or certifications
of compliance with particular requirements. 45 CFR §689.3(a)(1). Group II actions include
award suspension or restrictions on designated activities or expenditures; requiring special
review:s ofrequests for funding; and requiring correction to the research record. 45 CFR
§689.3(a)(2). Group III actions include suspension or termination of awards; prolnbitions on
participation as NSF reviewers, advisors or consultants; and debannent or suspension from
participation in NSF programs. 45 CFR § 689.3(a)(3).
                                                                                                Page 3
In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness t f the misconduct; our determination that it was committed intentionally; the fact
that you plagiarized from several previously funded NSF proposals; and the extensive nature of
the plagiarism. I have also considered other relevant circumstances. 45 CFR 8 689.3(b).

I, therefore, take the following actions:

        For three years after the expiration of your debarment period, you are required to submit
        certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        falsified;!or fabricated material.
                 it



        For t h r i years after the expiration of your debarment period,' you are required to submit
                 I1
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material.

        From the date of this letter through February 15, 20 14, you are prohibited &om serving as
               I
        an NSF reviewer,  advisor, or consultant.

       You are required to complete an ethics training course on plagiarism prior to submitting
       another proposal to NSF as a Principal Investigator or a co-Principal Investigator. You
       must certifi in writing to the OIG that such training has been completed.
                ii
All certifications and assurances should besubmitted in writing to the office of Inspector General,
Associate lnspebtor General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
                 I
22230.
                ,I,




                                                                                     .   -
Debarment

Regulatory Basis,for Debarment            -. ..

Pursuant to 2 CFR 180.800, debarment may be imposed for:                                               i
                il

                 I

       (b)     Yiolation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as - ..
                 I
                 I

               61)        A willhl hilure to perform in accordance with the terms of one or more
                ''        public agreements or transactions; or
                ...
                 I

               6)     '   A willful violation of a statutory or regulatory provision or requirement
                          applicable to a public agreement or transaction
                                                                                           Page 4
In any debannent action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you intentionally plagiarized
material in three grant proposals submitted to the Foundation. Thus, your action supports a cause
for debarment under 2 CFR 180.800(b).


Length ofDebarment

Debarment must be for a period commensurate with the seriousness ofthe causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period ofdebarment should not
exceed three years but, where circumstances warrant, a longer peried may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing your debarment for three
years.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment


Appeal Procedures for Finding ofResearch Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director ofthe Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. Ifwe do not receive your appeal within the 30-day period, the decision on the
finding of research misconduct will become final. For your information, we are attaching a copy
of the applicable regulations.


Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision ofthe recommended disposition. IfNSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counse~ 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy ofthe Foundation's regulations on
non-procurement debarment and FAR Subpart 9.4.
                                                                                        Page 5
Should you havelany questions about the foregoing, please contact           Assistant
General Counsel, at (703) 292



                                                   Sincerely,



                                                   Cora B. Marrett
                                                   Acting Deputy Director



Enclosures:
Investigative Report
~ o n ~ r o c u r e r n e Debarment
                          nt;       Regulations
FAR Regulations
45 CFR Part 689'
        National Science Foundation
          Office of Inspector General




                        Confidential
                   Keport oi lnvestlgauon
                  Case Number A-07070041
                              17 October 2008


    This Confidential Investigation Report is the property of the NSF OIG and may be dsclosed outside
       NSF only by O I G under the Freedom of Information and Privacy Acts, 5 U.S.C. $$ 552,552a.
I
                                                                                   NSF OIG Form 22b (11/06)
                                        Executive Summary

       We received an allegation of plagiarism in a proposal submitted to NSF.

OIG's inquiry established that:

       copied text and figures appeared in the subject's proposals submitted to NSF; and
       the text and figures were copied without quotation marks and without citation.

The University Investigation Committee concluded that:

       subject plagiarized extensive text into three NSF proposals
       the subject's actions were intentional

OIG's investigation established that:

       the subject copied approximately 1150 lines of text (containing 113 embedded
       references) and 4 figures into 3 proposals submitted to NSF; and
       the subject's actions are part of a pattern of plagiarism.

OIG concludes that:

       Act: The subject plagiarized approximately 1150 lines of text (with 113 embedded
       references) and 4 figures into 3 proposals submitted to NSF.
       Intent: The subject acted intentionally.
       Standardof Proof: A preponderance of the evidence supports the conclusion that the
       subject's acts were a significant departure from accepted practices and therefore
       constitute research misconduct.
       Pattern: The subject's actions were a part of a pattern of deceptive writing practices

OIG recommends that NSF:

       Make a finding of research misconduct against the subject;
       Send a letter of reprimand to the subject;
       Debar the subject from receiving Federal funds for a period of 3 years;
       Require that the subject submit certifications to the Associate Inspector General for
       Investigations (AIGI), NSF OIG for 3 years after debarment ends;           I

       Require that the subject's employer submit assurances to AIGI, NSF OIG for 3 years
       after debahent ends;
       Prohibit tfie subject from serving as a merit reviewer of NSF proposals for 5 years after
       debarment ends; and
       Require the subject provide certification to NSF OIG of attendance at a training course in
       proper codduct of research.
                                                       OIG's Inquiry

        We received an allegation that an NSF instrumentation proposal (Proposal A)' submitted
by the subject2 contained text copied from uncited sources. Our inquiry confirmed the
apparently copied:text. We also discovered that the subject's CAREER proposal (Proposal B ) ~
contained text and figures apparently copied from the work of others without citation.

       We wrote to the subject to obtain his perspective of the allegation (Tab 1). The subject
responded (Tab 2) and stated that he received permission from the company representative to
include verbatim material about the company's products in Proposal A. He included a copy of
an email to support that claim4. However, the email contains URL links to the descriptive
material as part of a quotation provided to the subject, and does not include permission to
reproduce the texts in the subject's NSF proposal.

        The subject further explained that his failure to provide quotation marks or citations in
Proposal B was an " o v e r ~ i ~ h t .He
                                       " ~ claims that he noted all the authors and references in notes
                    r
made during pre aration for the proposal, but apparently "erroneously failed and forgot to
properly credit" some authors in order to meet the page limit for references cited.7 The subject
stated that rather than use quotation marks and a citation for works that he consulted, his practice
was to add a reference to the general list of references.

        The subject's reply did not dispel the allegation, and we referred the investigation to the
subject's university (Tab 3). Subsequently, we received a separate allegation of plagiarism by
the subject in a proposal (Proposal c ) ~under merit review by NSF.' Our analysis of Proposal C
indicated that substantial portions of the text were copied from a previously funded NSF
proposal'0 submitted by others. As a result, we prepared and delivered a second letter to the
University that contained annotated copies of Proposal C and the apparent source proposal.




                                           University's Investigation



I
  Redacted.
  Dr. David I. Eromon, [redacted].
  Redacted.
  Subject's response letter (Tab 2), page 3.
  Subject's response letter (Tab 2), page 1.
6
  Subject's response letter (Tab 2), page
7
  NSF does not limit the number of references cited in an NSF proposal, nor does it establish a page limit to the
length of the References Cited section.
  Redacted.
9
  In his response of August 18,2007 (Tab 2), the subject stated in a description of his citation practices "If this is
not the appropriate pattern, I will like to withdraw my proposal pending with the NSF so that I can revise it along
with your guidelines." The subject did not withdraw the proposal, and it was considered within the standard NSF
merit review process independently of the ongoing investigation.
'O [redacted]. The subject did not review this proposal for NSF.
         The University convened an Investigation Committee (IC) to review the matter. At the
conclusion of its ihvestigation, we received a copy of the IC report with a cover letter, additional
letters that describe adjudicative action taken by the University, and a transcript of an interview
of the subject by the IC (Tab 5)."

        The IC interviewed the subject to determine the reason for the extensive copied text.
Regarding most of the sources that were not referenced in his proposals, the subject told the IC
that the references were originally compiled, but were truncated in a shortened reference list to
comply with NSF,proposal requirements. This response was similar to the explanation he
provided to OIG in his initial written response.

        The IC attempted to ascertain how the subject obtained a copy of the NSF proposal that
served as the source for text duplicated into Proposal C. The subject failed to provide a
definitive answer, suggesting at one point that an NSF program officer provided the proposal
(along with others) to him, and at another point suggesting that a fellow researcher outside of  .
NSF provided copies of NSF proposals to him.12 However, the IC elicited the subject's
admission that he did not have permission to use these materials verbatim in his own proposal.13

         The subject provided a written letter to the 'IC as part of the university investigation. In
this letter, the subject claimed that other.proposals he prepared and submitted (including another
proposal submitted to the NSF'~)did "not involve any research violation" and that the "current
situation is not systemic as might appear at first." In this letter, the subject took "full
responsibility" for his actions "in not properly attributing information to the original sources and
failure to provide full citations of the works that I used.""

        The IC found that the evidence supported a conclusion that the subject "intentionally
plagiarized the wdrk of others to represent it as his own work."I6 The IC recommended that the
university:l) deny the subject's promotion and award of tenure, 2) not reappoint the subject to
his faculty position, effectively terminating his university employment, and 3) suspend the
subject's research privileges.17 The Dean of the School of Technology agreed with these
recommendations, and made the concordant recommendations to the ~rovost."

         In his letter to the subject, the Provost indicated his intent to discharge the subject from
uni;ersity employment "because of misconduct of such a nature as to indicate that you are unfit
to continue as a member of the faculty."'g

                                            OIG's Investigation


"    Tab 5 contains the complete Investigative Report provided by the University.
     Tab 5, Exhibit D in University Report, "Explanation of Finds from NSF Committee Findings," page 4.
13
     Subject's interview transcript, page 27 (Tab 5).
14
     Redacted.
I5
     Tab 5, Appendix A, Exhibit B in University Report, Subject's letter of March 26,2008.
16
     Tab 5, Appendix B, Exhibit A in University Report, "Recommendation to Dean SOT," page 1.
I'   Ibid.
18
     Tab 5, Appendix C in University Report, Letter of April 21,2008, from [redacted].
l9   Tab 5, Appendix D in University Report, Letter of April 22,2008, fi-om [redacted].
       Based on our review, we conclude that the IC followed reasonable procedures, and that
the report is acc$ate and complete. However, we notified the subject (Tab 6) that NSF OIG was
continuing its o y n investigation.

        Based onlthe subject's statements to the IC that he received NSF proposals either from
NSF or from a rdsearch colleague, we asked NSF~'if the subject had made a formal request for
copies of any NSF proposals. NSF confirmed (Tab 7) that the subject made a Freedom-of-
Information-Act (FOIA) request2' on [redacted], and pursuant to that request, on [redacted], NSF
provided the subject with paper copies of 5 funded proposals, and shortly thereafter, a copy of a
sixth funded proposal.22 One of the proposals the subject received through his FOIA request was
the source docur$ent for the copied text in proposal C.

       We compared text in proposal B to text in these NSF proposals. We identified additional
lengthy passages:of verbatim text copied from two of the NSF proposals provided to the subject
through the FOIA process23as well as two other documents. A revised annotated copy of
Proposal B and copies of the newly identified source documents, with verbatim text underlined
and cross refere{ced, are attached at Tab 8.24 The additional sources revealed several pages of
additional copied text.                                                                                                  I




       As an example of the subject's actions in proposal B, text copied verbatim by the subject
from a source prbposa125contains embedded references that link to particular educational
programs at a university. While the subject modified the text to replace the name of the "source"
university with his own, the embedded references still link to descriptions of the original
programs. Additionally, in copying a reference from a source proposal, the subject neglected to
remove the original reference number.26 Finally, Proposal B contains two references to a
"personal commhication" in 2002 from a specific named individual. Those same references to
a personal comdunication appear in the two different source proposals from which the subject
copied both text knd reference^.^^

         To sumniarize, both Proposal B and C are 85-90% plagiarized. Proposal C is a nearly
                    I




20   [redacted], NSF FOIA officer.
21
     [redacted]
22
    The subject received paper copies of the following proposals: [redacted].
23
    We were previously aware of text apparently copied from one of these proposals [redacted]. Re-examination of
Proposal B showed that extensive passages were also copied from two other proposals [redacted].
24
   Newly identified copied text is indicated by red underlining to differentiate it from the highlighted texts
  reviously identified.
    The source propdsal is [redacted], with a PI at the [redacted]. Reference 63 in Proposal B proposal corresponds
to reference 85 in tlie source proposal. The reference refers to a cooperative education program at the [redacted],
and not with "the inbustrial collaboration program of the [redacted],'' as listed in the text of Proposal B. Reference
67 in Proposal B corresponds to reference 89 in the source proposal. The reference refers to a minority science and
engineering pograA at the [redacted], and not with the "Minority Science and Engineering Program at the
[redacted]" as listedlin the text of Proposal B.
26
    Reference [28] in the "References Cited" section of Proposal B contains an extraneous [82]. The reference is
duplicated from Re-ce         82 in source proposal [redacted].
27
    Reference [29] iq Proposal B reads [redacted]. The exact same citation appears as reference [78] in proposal
[redacted]. Referenfe [59] in Proposal B reads [redacted]. The exact same citation appears as reference [42] in
proposal [redacted].l
complete duplicate submission of a proposal submitted previously by someone else, and funded
by NSF, and provided to the subject as a result of his FOIA request.

~ro~osal~~                 Approx. number of          Copied figures              Approx. number of
                           copied text lines                                      embedded references29




Total                      1150                                 4                           113

         The subject stated in his response (Tab 2) to our inquiry letter that "my practice has been
to cite authors whose works I consulted under the references section." However, the evidence
indicates otherwise. The subject received copies of 6 proposals fiom NSF through the FOIA
process, and incorporated extensive sections of text from those proposals into his own proposals.
However, the subject did not cite those proposal authors as sources in his proposals, nor did he
reveal his FOIA request to the university IC, or to NSF OIG.

                                               OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.32



        OIG's investigation revealed the subject's extensive copying of text and figures, without
citation or the use of quotation marks, from 20 source documents into 3 proposals submitted to
NSF. Sources of duplicated text and figures include 5 scientific publications of other
researchers, 1 Ph.D. dissertation, 2 university news releases about research and educational
programs, 4 manufactukr's documents, and 5 general research reports fiom funding agencies. A
significant amount of text was also duplicated directly from 3 NSF proposals made available to
the subject in response to his FOIA request. All told, 1150 lines of text were copied by the
subject into 3 unfunded proposals submitted to NSF. Proposal C is 85-90% copied directly from
the funded NSF proposal of another researcher.


28
    Redacted.
29  An embedded reference appears at the same point in the copied text as in the original text, and links to the same
bibliographic'citation or URL, although its listing number may have changed.
30
    Examination of the formats and errors within the copied references provides strong evidence that the reference
lists of the source proposals were scanned, and that optical character recognition wasthen used to generate a list of
duplicated referenceslin the subject's proposals.
31
     Another 50 copied lines in this proposal are the same lines copied fiom the same source that appear in Proposal
B, and were counted there.
32 45 C.F.R. §689.2(c).
             The NSF Grant Proposal ~ u i d estates:
                                               '     NSF expects strict adherence to the rules of
    proper scholarship and attribution. The responsibility for proper attribution and citation rests
    with authors of a proposal; all parts of the proposal should be prepared with equal care for this
    concern.33 In offering text written by others as his own words, and in providing those words and
'
    figures to IVSF and IVSF reviewers as emblematic of his own understanding of the research field,
    the subject seriously departed from accepted standards of the research community.

                                                              Intent

            Although the subject states that his actions were an oversight, the University IC
    concluded, and we concur, that this claim is untenable. The subject copied text from multiple
    sources, word for word, including and embedded references, into his NSF proposals. The
    subject had to retype text from paper copies of source proposals, or use optical character
    recognition on reference lists, to do so. The subject replaced identifying information specific to
    the source, such as the name of another university, with the name of his own university. Even
    text that describes the personal communication with other scientists was copied directly from the
    sources. The overwhelming evidence dispels the subject's claim of "oversight."34 We concur
    with the conclusions of the University IC, which states the subject " intentionally copied [the
    source proposal] ahd [the subject] knew that it was wrong to copy."35 We conclude that the
    subject's actions were intentional.

                                                       Standard o f Proof

            Direct comparison of the subject's proposals shows that copied text and figures from
    numerous source documents were used without quotation marks, and often without citation, in
    the subject's NSF proposals. We conclude the evidence far exceeds the standard of
    preponderance of the evidence in confirming that the subject intentionally copied text and figures
    into his submitted~proposals.Because the preponderance of evidence shows his actions of
    copying unattributed text represents a significant departure from accepted practices, we conclude
    that subject has committed plagiarism and his actions constitute research misconduct.

                                            OIG's Recommended Disposition

             When deciding what appropriate action to take upon a finding of misconduct, NSF must
    consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
    knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern; (4)
    whether it had a significant impact on the research record, research sub'ects, other researchers,
    institutions or the public welfare; and (5) other relevant circumstances.         4,
                                                           Seriousness

    33
       NSF Grant Proposal Guide, Chapter 1, Section D.3. This wording of this section remains the same in successive
    editions of the Grant Proposal Guide applicable to submissions in each year in which the subject submitted
    proposals.
    34 Subject's response'letter of August 18,2007 (Tab 2).
    35
         IC report, page 5 (The IC report is Exhibit D in the materials at Tab 5).
    36   45 C.F.R. 4 689.3(b).
            The subject copied approximately 1150 lines of text, 4 figures, and reference lists, into 3
    proposals submitted to NSF. Proposals B and C are CAREER proposals that are extensively
    plagiarized. These proposals contain text and figures copied from the work of others, and copied
    paragraphs that purport to describe personal academic experiences and-educational plans. The
    subject chose to present all of that copied material to reviewers as his own. Based on the
    subject's history of academic positions and research experience,)' we conclude that he can
    reasonably be expected to be familiar with the standards of scholarship.

                                          Degree to which the Act was Intentional

            The subject's actions were clearly a part of a planned deception. He submitted a FOIA
    request, and received from NSF copies of 6 funded proposals. He then copied extensively from
    3 of them into his own NSF proposals, substituting the name of his own University into spots in
1
I   the text at which the name of some other university originally appeared. The subj6ct copied text
    describing the personal experiences of other researchers, substituting place names as needed.
1
    The subject copied educational plans and initiatives devised by others, substituting course and
    project names. This planned deception is among the more egregious intentional violations our
    office has seen.

                                                          Pattern

           The subject's plagiarism appeared in 3 proposals submitted to NSF, starting in May 2006
    and ending in July 2007. The volume of copied text and figures evinces a characteristic and
    signature pattern of behavior by the subject.

                                                Impact on the research record

            NSF has declined all of the subject's proposals. We therefore conclude that the impact
    on the research record, to date, has been minimal.

                                                       Asgravating
                                                         -         factors

            We are concerned that the subject does not acknowledge the extent or seriousness of
    plagiarism in his proposals. Our inquiry letter to the subject asks if there are additional instances
    of plagiarism other than those identified; the subject was not forthcoming in his reply. For the
    plagiarism that was identified, the subject admits only to an "oversight," although the extent of
    his actions to intentionally copy, scan, and then replace incriminating words in duplicated text
    was pervasive. The subject did not reveal to the University IC, nor to this office, that he received
    copies of 6 funded NSF proposals through the FOIA process. The subject then used them as a
    smorgasbord frok which text could be copied into his own proposals. Although the subject
    accepts responsibility for his actions in his statement to the University IC, he was steadfastly
    reluctant to admit before the committee the nature or extent of those actions.)*

    37
        The biographical sketch provided by the subject in his most recent proposal is included at Tab 9, which also
    includes a PI history.
        Subject interview transcript is at Tab 5.
                                                        Subject's comments
                                             %




    i/          The subject was provided a draft copy of this report for comments. The subject did not
         challenge the facts within the report, but appealed the recommended actions. The subject
         suggested that termination of his employment with the University was sufficient punishment.
         The subject's response is at Tab 10. We made no change to the report.

                                                         Recommendation

                 We recently became aware that the subject has accepted a temporary assistant professor
         position at another            To protect the Federal interest, and based on the evidence in
         this case, lVSF OIG recommends that NSF:

                  Make a finding of research misconduct against the subject; and
                  Send a letter of reprimandJto the subject;40and
                  Debar the subject from reckiving Federal funds for a period of 3 years;41and
                  Require that the subject submit certifications to the Associate Inspector General for
                  Investigations (AIGI), NSF OIG for 3 years after debarment ends;42and
                  Require that the subject's employer submit assurances to AIGI, NSF OIG for 3 years

~
                  after debarkent ends;43and
                                                                                 i
                  Prohibit the subject from serving as a peer reviewer of IVSF proposals for Syears after
I                 debarment ends;44and
                  Require the subject provide certification to NSF OIG of attendance at a training course in
                  proper conduct of research.45




         39
             Redacted.
         40
             A letter of reprimand is a Group I action, 45 C.F.R. $689.3(a)(l)(i),
         41
             Debarment is a Group 111action, 45 C.F.R. $689.3(a)(3)(iii).
         42 A certification from the subject is analogous to listed Group I actions 45 C.F.R. $689.3(a)(l).
         45. <Assurancefrom the subject's employer is a Group I actions 45 C.F.R. $689.3(a)(1).
         44 rPr~hibition  from service as a reviewer for NSF is a Group I11 action 45 C.F.R. §689.3(a)(3)(ii).
         45 A course requirements is analogous to listed Group I actions 45 C.F.R. $689.3(a)(l).
